HHS/OIG - Audit,"Summary Report on Select Agent Security at Universities,"(A-04-04-02000)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Summary Report on Select Agent Security at Universities," (A-04-04-02000)
March 25, 2004
Complete
Text of Report is available in PDF format (149 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The final report consolidates results from our reviews of select agent security at 11 universities.  In general,
serious weaknesses that compromised the security of select agents existed at all 11 universities.  Physical security
weaknesses left select agents vulnerable to theft or loss, thus elevating the risk of public exposure.  Inadequate
inventory and recordkeeping procedures prevented us from concluding that the universities had complied with the select
agent transfer requirements.  At least half the universities had inadequate procedures for identifying persons barred
from accessing select agents.  Five universities that used information technology resources for select agent data
exhibited control weaknesses that could compromise the security and integrity of the data.  The OIG reports contained
numerous recommendations for strengthening physical security, compliance with the select agent transfer requirements, controls
over restricted person access, and information technology controls.  In general, the universities agreed with the
OIG recommendation and began implementing corrective actions.